■41

t

App. 1

Case: 17-15228

Date Filed: 03/25/2020

Page: 1 of 5

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-15228
Non-Argument Calendar

D.C. Docket No. 5:16-cv-00044-LGW-RSB

KASIM GANDY,
Plaintiff,
WASEEM DAKER,
Interested Party - Appellant,
versus
HOMER BRYSON, et al,
Defendants,
WARDEN, WARE STATE PRISON,
NATHAN BROOKS,
Tier II Program Unit Manager Ware State Prison,
in his official capacity,
WILLIAM STEEDLY,
Lt of Administrative Segregation Ware State Prison,
in his official capacity,
KIMBERLY LOWE,
Correctional Counselor Ware State Prison,
in her official capacity,

Case: 17-15228

Date Filed: 03/25/2020

Page: 2 of 5

COX,
Tier II Program Unit Manager Ware State Prison,
in his/her official capacity,

Defendants - Appellees.

Appeal from the United States District Court
for the Southern District of Georgia
(March 25, 2020)
Before JORDAN, LAGOA, and HULL, Circuit Judges.
PER CURIAM:
Waseem Daker, a state prisoner proceeding pro se and in forma pauperis,
appeals from the district court’s denial of his motion for reconsideration of the
magistrate judge’s order denying his motion to intervene in another inmate’s civil
rights action. He argues that he meets all the requirements for intervention as of
right under Rule 24, and that the Prison Litigation Reform Act does not prohibit him
from intervening into another inmate’s case without paying the full filing fee.
We review questions of jurisdiction de novo. See Williams v. Chatman, 510
F.3d 1290, 1293 (11th Cir. 2007). We review the denial of a Rule 59(e) motion for
abuse of discretion. See Lambert v. Fulton Cly., Ga., 253 F.3d 588, 598 (11th Cir.
2001). Unsuccessful motions to intervene as of right under Rule 24(a) are reviewed
de novo. See Walters v. City ofAtlanta, 803 F.2d 1135, 1150 n.16 (11th Cir. 1986).
2

Case: 17-15228

Date Filed: 03/25/2020

Page: 3 of 5

Further, “[t]he district court’s interpretation of the PLRA is a statutory finding and
constitutes a question of law, which is reviewed de novo” Hubbard v. Haley, 262
F.3d 1194, 1196 (11th Cir. 2001).
The denial of a motion to intervene is generally not considered a final
appealable order over which we have jurisdiction. See Fed. Say. & Loan Ins. Corp.
v. Falls Chase Special TaxingDist., 983 F.2d 211, 214 (11th Cir. 1993). However,
jurisdiction to review such an order is created under our ‘“anomalous rule’ which
grants provisional jurisdiction to determine whether the district court erroneously
concluded that the appellant was not entitled to intervene under Rule 24.” Id.
(quotation marks omitted). Thus, if we determine that the district court correctly
ruled on the petition to intervene, then we do not have jurisdiction to address the
district court’s ruling. See id.
A party seeking to intervene as of right under Rule 24 must show that: (1) his
motion to intervene is timely; (2) “he has an interest relating to the property or
transaction which is the subject of the action”; (3) the disposition of the action may
impede or impair his ability to protect that interest; and (4) his interest is not
represented adequately by the existing parties to the suit. Chiles v. Thornburgh, 865
F.2d 1197,1213 (11th Cir. 1989); see also Fed. R. Civ. P. 24(a)(2). “If he establishes
each of the four requirements, the district court must allow him to intervene.” Chiles,
865 F.2d at 1213.
3

Case: 17-15228

Date Filed: 03/25/2020

Page: 4 of 5

The PLRA provides that “if a prisoner brings a civil action or files an appeal
\

in forma pauperis, the prisoner shall be required to pay the full amount of a filing
fee.” 28U.S.C. § 1915(b)(1).
In Hubbard, the plaintiff and 17 other state prisoners filed a pro se civil rights
action against several prison officials. See 262 F.3d at 1195. The district court
dismissed the case, finding that each plaintiff had to file a separate complaint and
pay a separate filing fee. See id. We held that, in the context of joinder under Rule
20, the PLRA clearly and unambiguously requires that “if a prisoner brings a civil
action or files an appeal in forma pauperis, the prisoner shall be required to pay the
full amount of a filing fee.” Id. at 1197 (quotation marks omitted). Additionally,
we determined that the Congressional purpose in promulgating the PLRA—to deter
frivolous civil actions brought by prisoners by requiring each individual to pay the
full filing fee—supported an interpretation that each prisoner in this case pay the full
filing fee. See id. at 1197-98. We further held that the PLRA repealed the Rules
Enabling Act, as expressed in Rule 20, to the extent that it conflicted with the PLRA.
See id. at 1198 (citingMitchell v. Farcass, 112 F.3d 1483,1489 (11th Cir. 1997) (“A
statute passed after the effective date of a federal rule repeals the rule to the extent
that it actually conflicts.”). Accordingly, we held that, “[bjecause the plain language
of the PLRA requires that each prisoner proceeding IFP pay the full filing fee,” the
district court had properly dismissed the multi-plaintiff action. Id.
4

Case: 17-15228

Date Filed: 03/25/2020

Page: 5 of 5

Although Hubbard involves joinder rather than intervention, its reasoning
applies here. We agree with the district courts in our circuit which have so held.
See, e.g., Daker v. Wetherington, 469 F. Supp. 2d 1231, 1234-36 (N.D. Ga. 2007);
Smith v. Fla. Dept, of Corrections, 2015 WL 500166, *2 (S.D. Fla. Feb. 4, 2015).
We therefore conclude that the district court correctly denied (1) Mr. Daker’s motion
to intervene, and (2) Mr. Daker’s motion for reconsideration. As a result, we do not
have jurisdiction over the appeal. See Falls Chase, 983 F.2d at 214.
APPEAL DISMISSED.

5

1

• Case 5:16-cv-00044-LGW-BWC Document 80 Filed 10/31/17 Page 1 of 4

f:-

3n tfjc MnttelJ States IB Strict Cotrrt:
Jfor tfjc gxiutljern IBtsftrirt of (Seo^gta:t 7 1
l^aptroSO IBtbtsiton
*

r nuRT
. v

/

(7.

A cl; 51

r • '—

KASIM GANDY,
Plaintiff,
v.
TOM GRAMIAK; NATHAN BROOKS;
WILLIAM STEEDLY; KIMBERLY LOWE;
and UNIT MANAGER COX.
Defendants.

*
*
*
*
*
*
*

CIVIL ACTION NO.: 5:16-cv-44

*
*
*
*

ORDER
Presently before the Court are the Magistrate Judge's
June 16, 2017, Report and Recommendation, Movant Waseem Daker's
("Daker") Motion for Reconsideration, and Daker's Motion for
District Court to Rule on Motion for Intervention.
59, 66, 70.

Dkt. Nos.

For the reasons set forth below, the Court DENIES

Daker's Motion for Reconsideration and DISMISSES AS MOOT Daker's
Motion for District Court to Rule on Motion for Intervention.
Additionally, the Court ADOPTS the Magistrate Judge's Report and
Recommendation as the opinion of the Court and DENIES Daker
leave to appeal in forma pauperis.
BACKGROUND
On February 3, 2017, Daker filed a Motion to Intervene in
this 42 U.S.C. § 1983 prisoner-plaintiff case.
tfi\l l)t,X
AO 72A
(Rev. 8/82)

S

Dkt. No. 36.

I
■"

T"!

• Case 5:16-cv-00044-LGW-BWC Document 80 Filed 10/31/17 Page 2 of 4

•N,*t

The Magistrate Judge denied Daker's Motion.

Dkt. No. 39.

Daker
v.

filed a Motion for Reconsideration, dkt. no. 55, which the
Magistrate Judge denied on June 16, 2017, dkt. no. 58.

The

Magistrate Judge also recommended this Court deny Daker in forma
pauperis status on appeal if Daker appealed the Order denying
his Motion for Reconsideration.

Dkt. No. 59.

Daker then filed

a second Motion for Reconsideration, requesting the district
court to reevaluate the Magistrate Judge's June 16, 2017, Order
denying his first Motion for Reconsideration.

Dkt. No. 66.

Daker also separately filed a Motion asking the District Court
to rule upon the originally filed Motion to Intervene.

Dkt.

No. 70.
DISCUSSION
The Court construes Daker's second Motion for
Reconsideration as a Rule 72(a) objection or appeal of the
Magistrate Judge's June 16, 2017, Order.1

Under Federal Rule of

Civil Procedure 72(a), "[a] party may serve and file objections
to [a magistrate judge's] order within 14 days after being
served with a copy. . .

. The district judge in the case must

1 "Federal courts sometimes will ignore the legal label that a pro se
litigant attaches to a motion and recharacterize the motion in order
to place it within a different legal category." Retie v. United ■
States, 215 F. App'x 962, 964 (11th Cir. 2007) (quoting Castro v.
United States, 540 U.S. 375, 381 (2003)). Federal courts "may do so
in order to avoid an unnecessary dismissal, to avoid inappropriately
stringent application of formal labeling requirements, or to create a
better correspondence between the substance of a pro se motion's claim
and its underlying legal basis." Id. (quoting Castro, 540 U.S. at
381-82).
A0 72A
(Rev. 8/82)

2

■ Case 5:16-cv-00044-LGW-BWC Document 80 Filed 10/31/17 Page 3 of 4

consider timely objections and modify or set aside any part of
the order that is clearly erroneous or is contrary to law."
Fed. R. Civ. P. 72(a); see also 28 U.S.C. § 636(b)(1)(A)
(reciting same "clearly erroneous or contrary to law" standard).
District courts apply the clearly erroneous standard to
findings of fact by the magistrate judge and the contrary to law
standard to legal conclusions.
deferential."

Both standards are "exceedingly

Pate v. Winn-Dixie Stores, Inc., No. CV 216-166/

2014 WL 5460629/ at *1 (S.D. Ga. Oct. 27, 2014)
citations omitted).

(internal

"A finding is 'clearly erroneous' when

although there is evidence to support it, the reviewing- [body]
on the entire evidence is left with the definite and firm
conviction that a mistake has been committed."

Concrete Pipe &

Prods, of Cal., Inc, v. Constr. Laborers Pension Tr. for S.
Cal., 508 U.S. 602, 622 (1993)(citing United States v. U.S.
Gypsum Co., 333 U.S. 364, 395 (1948)).

A finding is contrary to

law "where it either fails to follow or misapplies the
applicable law."

Jackson v. Deen, No. CV412-139, 2013 WL

3991793, at *2 (S.D. Ga. Aug. 2, 2013)(citations omitted).
The Court discerns no reason to modify or set aside any
part of the Magistrate Judge's Order.

The Magistrate Judge

applied the appropriate legal standard in denying Daker's Motion
for Reconsideration and addressed Daker's arguments extensively.
Dkt. No. 59, pp. 3-4.
A0 72A
(Rev. 8/82)

Furthermore, Daker's arguments

3

I

• Case 5:16-cv-00044-LGW-BWC Document 80 Filed 10/31/17 Page 4 of 4

challenging the Magistrate Judge's June 16, 2017, Order simply
reiterate the arguments already discussed and rejected by the
Magistrate Judge.

The Court sees no error in that analysis,

much less clear error, and does not find the Magistrate Judge's
ruling to be contrary to law.
CONCLUSION
Accordingly, the Court DENIES Daker's Motion for
Reconsideration, dkt. no. 66, and DISMISSES AS MOOT Daker's
Motion for this Court to rule on his previously-addressed Motion
to Intervene, dkt. no. 70.

Furthermore, the Court ADOPTS the

Magistrate Judge's June 16, 2017, Report and Recommendation,
dkt. no. 59, as the opinion of the Court and DENIES Daker leave
to appeal in forma pauperis.

The Court DIRECTS the Clerk of

Court to serve a copy of this Order upon Plaintiff AND non-party
Waseem Daker.
SO ORDERED, this

day of

HON/ LISA GODBEY WOOD, JUDGE
UfiJJTED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA

AO 72A
(Rev. S/82)

4

, 2017.

r

Case 5:16-cv-00044-LGW-RSB Document 39 Filed 02/28/17 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
WAYCROSS DIVISION

KASIM GANDY,
CIVIL ACTION NO.: 5:16-cv-44

Plaintiff,
v.

TOM GRAMIAK; EDWINA JOHNSON;
JOHN BOYETT; NATHAN BROOKS;
WILLIAM STEEDLY; AUSTIN ADAMS;
KIMBERLY LOWE; and UNIT MANAGER
COX,
Defendants.
ORDER
Presently before the Court is inmate and non-party Waseem Daker’s (“Daker”) Motion
for Intervention, (doc. 36), Plaintiffs Motion for Extension of Time, (doc. 37), and Defendants’
Boyett and Brooks’ Motion for Extension of Time, (doc. 38). For the reasons which follow, the
Court DENIES Daker’s Motion, GRANTS IN PART Plaintiffs Motion, and DENIES AS
MOOT Defendants’ Motion.
I.

Daker’s Motion for Intervention, (doc. 36), and Defendants’ Motion for Extension of
Time, (doc. 38)
Plaintiff filed this in forma pauperis action on June 9, 2016, pursuant to 42 U.S.C.

§ 1983. (Doc. 1.) After the Court conducted the requisite frivolity review, Plaintiff was allowed
to proceed with his due process and First Amendment claims. (Docs. 10, 14.) On February 16,
2017, Daker filed his Motion for Intervention. (Doc. 36.)
Rule 24 of the Federal Rules of Civil Procedure allows a non-party to intervene in an
ongoing action if certain conditions, laid out by the Rule, are met. Fed. R. Civ. P. 24. Daker

|(\P¥> £i\J fit: X

C

w

-

Case 5:16-cv-00044-LGW-RSB Document 39 Filed 02/28/17 Page 2 of 4

seeking to intervene and become a party to this case is akin to multiple prisoner-plaintiffs
seeking to proceed in forma pauperis (“IFP”) in the same cause of action. The Eleventh Circuit
Court of Appeals has considered the issue of whether “the Prisoner Litigation Reform Act
[“PLRA”] permits multi-plaintiff [IFP] civil actions.” Hubbard v. Haley, 262 F.3d 1194, 1196
(11th Cir. 2001).

In Hubbard, the Court of Appeals noted that “the intent of Congress in

promulgating the PLRA was to curtail abusive prisoner tort, civil rights and conditions of
confinement litigation.” Id (citing Anderson v. Singletary, 111 F.3d 801, 805 (11th Cir. 1997)).
After interpreting the PLRA, the Eleventh Circuit upheld a district court’s dismissal of a
multiple-prisoner/plaintiff lawsuit wherein the plaintiffs sought to proceed in forma pauperis
together. The Eleventh Circuit concluded that “the PLRA clearly and unambiguously requires
that ‘if a prisoner brings a civil action or files an appeal [IFP], the prisoner shall be required to
pay the full amount of the filing fee.’” Id. at 1197 (citing 28 U.S.C. § 1915(b)(1)). Specifically,
the Eleventh Circuit affirmed the following procedure:
The district court never reached the merits of the case, but instead dismissed the
case, finding that each plaintiff had to file a separate complaint and pay a separate
filing fee. To facilitate its ruling, the district court indicated that it would open a
new suit with a separate number in each of the plaintiffs names and consider the
original complaint to be their complaints. The majority of the 18 plaintiffs had
already filed separate petitions to proceed IFP. The court directed each of the
remaining plaintiffs to file his own form complaint and petition to proceed IFP.
The court then dismissed the original multi-plaintiff complaint without prejudice.
Id. Ultimately, the Eleventh Circuit determined that “the plain language of the PLRA requires
that each prisoner proceeding IFP pay the full filing fee[.]” Id.
Plaintiff is proceeding in forma pauperis in this action. Allowing Daker to intervene in
this action would circumvent the Congressional purpose in promulgating the PLRA. Id- at 1197—
98. That is, “[t]he modest monetary outlay will force prisoners to think twice about the case and
not just file reflexively.” Id at 1198 (quoting 141 Cong. Rec. S7526 (May 25, 1995) (statement

2

f%

•

Case 5:16-cv-00044-LGW-RSB Document 39 Filed 02/28/17 Page 3 of 4

of Sen. Kyle)). Additionally, allowing Daker to intervene would directly contradict the Eleventh
Circuit’s conclusion that “the PLRA clearly and unambiguously requires that ‘if a prisoner
brings a civil action or files an appeal [IFP], the prisoner shall be required to pay the full amount
of the filing fee.’” Id at 1197 (citing 28 U.S.C. § 1915(b)(1)); see also Bowens v. Turner
Guilford Knight Pet.. 510 F. App’x 863 (11th Cir. 2013) (affirming dismissal of complaint under
Hubbard, in which six inmates joined claims in a single suit); Garcia v. McNeil. No. 4:07CV474SPM/WCS, 2010 WL 4823370, at *2 (N.D. Fla. Aug. 12, 2010), report and recommendation
adopted, No. 4:07-CV-474-SPM WCS, 2010 WL 4818067 (N.D. Fla. Nov. 22, 2010) (“Hubbard
decided that since every prisoner must pay a full filing fee, and since other litigants who join
together in one complaint pay only one filing fee, prisoners cannot join under Rule 20. That
means that the prisoners here, who have a lawyer and who do not pursue frivolous claims, cannot
join under Rule 20 in light of Hubbard—even if each of them pays [the filing fee]. This court is
bound by Hubbard.”).
Eleventh Circuit law clearly prohibits multiple prisoner plaintiffs from proceeding in
forma pauperis in the same civil action.1 Consequently, the Court DENIES Daker’s Motion for
Intervention, (doc. 36), and DENIES AS MOOT Defendants’ Boyett and Brooks’ Motion for
Extension of Time to File Response to Daker’s Motion, (doc. 38).
II.

Plaintiff’s Motion for Extension of Time (Doc. 37)
Plaintiff requests additional time to “research and prepare his defense.” (Doc. 37, p. 1.)

The Court construes this as a Motion for Extension of Time to Respond to Defendants’ Boyett

1 Even if such clear precedent did not exist, Daker would still be prohibited from proceeding. Daker
asserts that he has a “direct, substantial, legally protectable interest in the proceedings” because he is also
an inmate in the Georgia Department of Correction’s Tier II program. (Doc. 41, p. 3.) This broad,
conclusory assertion is insufficient to meet the requirements set out by Federal Rules of Civil Procedure
Rule 24 for either intervention as a matter of right or permissive intervention. Fed. R. Civ. P. 24(a)(2) &
(b)(2).

3

if***

:

^

•

Case 5:16-cv-00044-LGW-RSB Document 39 Filed 02/28/17 Page 4 of 4

and Brooks’ Motion to Dismiss.2 After careful consideration, the Court GRANTS IN PART
Plaintiffs Motion.
THEREFORE, IT IS HEREBY ORDERED that the deadline for Plaintiff to respond to
Defendants’ Motion to Dismiss, (doc. 34), is extended for a period of twenty-one (21) days from
the date of this Order, up to and including March 21, 2017. Plaintiff is forewarned that, if he
does not file an opposition to Defendants’ Motion by that date, the Court will consider the
Motion unopposed.
SO ORDERED, this 28th day of February, 2017.

A'

jLr~

R. STAN BAKER
UNITED STATES MAGISTRATE JUDGE
SOUTHERN DISTRICT OF GEORGIA

2 “Federal courts sometimes will ignore the legal label that a pro se litigant attaches to a motion and
recharacterize the motion in order to place it within a different legal category.” Retie v. United States.
215 F. App’x 962, 964 (11th Cir. 2007) (quoting Castro v. United States. 540 U.S. 375, 381 (2003)).
Federal courts “may do so in order to avoid an unnecessary dismissal, to avoid inappropriately stringent
application of formal labeling requirements, or to create a better correspondence between the substance of
a pro se motion’s claim and its underlying legal basis.” Id (quoting Castro. 540 U.S. at 381-82).

4

,

•

Case 5:16-cv-00044-LGW-BWC Document59 Filed 06/16/17 Page lot6

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
WAYCROSS DIVISION

<^Q%ILED
fi
l£-Poff, Clerk
t! .United States District Court
By'staylor at'2:13 pm, Jun 16, 2017

KASIM GANDY,
Plaintiff,

CIVIL ACTION NO.: 5:16-cv-44

v.
TOM GRAMIAK,
Defendants.

ORDER and MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
Presently before the Court is non-party Waseem Daker’s (“Daker”) Motion for
Reconsideration of the Court’s Order dated February 28, 2017. (Doc. 55.) For the reasons set
forth below, the Court DENIES Daker’s Motion for Reconsideration.

Additionally, I

RECOMMEND that the Court DENY Daker leave to proceed in forma pauperis on appeal.
The Court DIRECTS the Clerk of Court to serve a copy of this Order and Report and
Recommendation upon Plaintiff AND non-party Waseem Daker.
BACKGROUND
On February 3, 2017, Daker filed a Motion to Intervene in this case. (Doc. 36.) Daker
argued that he should be allowed to intervene as a matter of right under Federal Rules of Civil
Procedure Rule 24(a) and permissively under Rule 24(b). (Id. at p. 2.) Daker contended that
intervention was proper for his claims that his placement in the Tier II program at Georgia State
Prison violates his substantive and procedural due process rights.

As support, Daker

conclusively asserted that: his Motion was timely filed; he has a “direct, substantial, legally
protectable interest in the proceedings” by nature of his status as a prisoner in the Tier II

•

Case 5:16-cv-00044-LGW-BWC Document 59 Filed 06/16/17 Page 2 of 6

segregation program; the disposition of this case would impair his ability to protect his interest
due to stare decisis; and Plaintiff would not adequately represent his interests. (Id at pp. 2-4.)
On February 28, 2017, the Court denied Daker’s Motion to Intervene. (Doc. 39). The
Court advised Daker that the Prison Litigation Reform Act (“PLRA”) disallows multipleprisoner/plaintiff lawsuits wherein the prisoners/plaintiffs seek to proceed in forma pauperis
together. (Id at p. 2.) Specifically, the Court informed Daker that a prisoner wishing to bring a
civil action in forma pauperis must pay the full amount of the filing fee.1 (Id.)
In his instant Motion, Daker restates the arguments from his Motion to Intervene and
further argues that intervention is allowed because neither the PLRA nor Hubbard v. Haley, 262
F.3d 1194 (11th Cir. 2001), applies to motions brought pursuant to Rule 24.
DISCUSSION
I.

Motion for Reconsideration (Doc. 55)
A motion for reconsideration, or a Federal Rule of Civil Procedure 59(e) motion, is “an

extraordinary remedy, to be employed sparingly.” Smith ex rel. Smith v. Augusta-Richmond
Ctv.. No. CV 110-126, 2012 WL 1355575, at *1 (S.D. Ga. Apr. 18, 2012) (internal citation
omitted). “A movant must set forth facts or law of a strongly convincing nature to induce the
court to reverse its prior decision.” Id. (internal citation omitted).

“The only grounds for

granting a Rule 59 motion are' newly-discovered evidence or manifest errors of law or fact.”
Jacobs v. Tempur-Pedic Intern., Inc., 626 F.3d 1327, 1344 (11th Cir. 2010) (quoting In re
Kellogg. 197 F.3d 1116, 1119 (11th Cir. 1999) (internal punctuation omitted)). “A Rule 59(e)
motion cannot be used to relitigate old matters, raise argument or present evidence that could

The Court notes that this is not the first case in this District where Daker has sought and been denied
intervention. See Orders, Daniels v. Upton, et al„ 6:16-cv-94-JRH-RSB (S.D. Ga. Feb. 17, 2017 &
Mar. 27,2017) ECF Nos. 43, 46.
2

x

*

Case 5:16-cv-00044-LGW-BWC Document 59 Filed 06/16/17 Page 3 of 6

have been raised prior to the entry of judgment.” Id (quoting Michael Linet Inc, v. Village of
Wellington. 408 F.3d 757, 763 (11th Cir. 2005) (alterations omitted)).
The Court discerns no reason to grant Daker’s Motion for Reconsideration. Here, Daker
does not present any newly- discovered evidence or manifest errors of law or fact. Daker simply
attempts to argue that Hubbard does not apply to Rule 24 motions, and that even if it did, the
United States Supreme Court’s decision in Jones v. Bock, 549 U.S. 199 (2007), overruled
Hubbard. However, both these arguments are without merit.
While it is true that the Eleventh Circuit Court of Appeals addressed joinder rather than
intervention in Hubbard, the reasoning and analysis behind Hubbard remain true for intervention
under Rule 24. That is, in order to curtail abusive prisoner tort, civil rights, and conditions of
confinement litigation, “[T]he PLRA clearly and unambiguously requires that ‘if a prisoner
brings a civil action or files an appeal in forma pauperis, the prisoner shall be required to pay the
full amount of a filing fee.’” Hubbard, 262 F.3d at 1197 (quoting 28 U.S.C. § 1915(b)(1)).
Additionally, “the Congressional purpose in promulgating the PLRA enforces an interpretation
that each prisoner pay the full filing fee.” Id at 1197-98. In fact, the Court’s reasoning in
Hubbard is especially appropriate in this case. Daker, a known serial litigant in this district and
others, has been denied in forma pauperis status on multiple occasions pursuant to 28 U.S.C.
§ 1915(g), the PLRA’s three-strikes provision.

See Daker v. Bryson, et al.. No. 6:16-cv-57-

JRH-RSB, 2017 WL 242615, at *3 (S.D. Ga. Jan. 19, 2017), report and recommendation
2 Jones addressed the administrative exhaustion requirement of the PLRA and is inapplicable to the
Court’s denial of Daker’s Motion to Intervene.
3 “In no event shall a prisoner bring a civil action or appeal a judgment in a civil action or proceeding
under this section if the prisoner has, on 3 or more prior occasions, while incarcerated or detained in any
facility, brought an action or appeal in a court of the United States that was dismissed on the grounds that
it is frivolous, malicious, or fails to state a claim upon which relief may be granted, unless the prisoner is
under imminent danger of serious physical injury.” 28 U.S.C. § 1915(g).

3

*

Case 5:16-cv-00044-LGW-BWC Document 59 Filed 06/16/17 Page 4 of 6

adopted by No. 6:16-cv-57-JRH-RSB, 2017 WL 1053082 (S.D. Ga. Mar. 20, 2017). His Motion
to Intervene in this case is a blatant attempt to circumvent the requirements of the PLRA and is
precisely the type of behavior the PLRA sought to curtail.
The Court sees no error in its analysis denying Daker’s Motion to Intervene, much less
manifest error warranting reconsideration. Accordingly, the Court DENIES Daker’s Motion for
Reconsideration, (doc. 55).
II.

Leave to Appeal in Forma Pauperis
Additionally, the Court should DENY Daker in forma pauperis status on appeal. Though

Daker has, of course, not yet filed a notice of appeal, it would be appropriate to address these
issues in the Court’s order of dismissal. Fed. R. App. P. 24(a)(3) (trial court may certify that
appeal is not taken in good faith “before or after the notice of appeal is filed”).
An appeal cannot be taken in forma pauperis if the trial court certifies that the appeal is
not taken in good faith. 28 U.S.C. § 1915(a)(3); Fed. R. App. P. 24(a)(3). Good faith in this
context must be judged by an objective standard. Busch v. Cty. of Volusia. 189 F.R.D. 687, 691
(M.D. Fla. 1999). A party does not proceed in good faith when he seeks to advance a frivolous
claim or argument. See Coppedge v. United States, 369 U.S. 438, 445 (1962). A claim or
argument is frivolous when it appears the factual allegations are clearly baseless or the legal
theories are indisputably meritless. Neitzke v. Williams, 490 U.S. 319, 327 (1989); Carroll v.
Gross, 984 F.2d 392, 393 (11th Cir. 1993). Stated another way, an in forma pauperis action is
frivolous, and thus, not brought in good faith, if it is “without arguable merit either in law or
fact.” Napier v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002); see also Brown v. United States,
Nos. 407CV085, 403CR001, 2009 WL 307872, at *1-2 (S.D. Ga. Feb. 9, 2009).

4

*

Case 5:16-cv-00044-LGW-BWC Document 59 Filed 06/16/17 Page 5 of 6

Based on the above analysis of Daker’s Motion and the Court’s February 28, 2017,
Order, (doc. 39), there are no non-frivolous issues to raise on appeal, and an appeal would not be
taken in good faith. Thus, the Court should DENY Daker in forma pauperis status on appeal.
CONCLUSION
For the above-stated reasons, the Court DENIES Daker’s Motion for Reconsideration.
(Doc. 55.) Additionally, I RECOMMEND that the Court DENY Daker leave to proceed in
forma pauperis on appeal.
The Court ORDERS any party seeking to object to this Report and Recommendation to
file specific written objections within fourteen (14) days of the date on which this Report and
Recommendation is entered. Any objections asserting that the Magistrate Judge failed to address
any contention raised in the Complaint must also be included. Failure to do so will bar any later
challenge or review of the factual findings or legal conclusions of the Magistrate Judge. See 28
U.S.C. § 636(b)(1)(C); Thomas v. Am, 474 U S. 140 (1985). A copy of the objections must be
served upon all other parties to the action. The filing of objections is not a proper vehicle
through which to make new allegations or present additional evidence.
Upon receipt of Objections meeting the specificity requirement set out above, a United
States District Judge will make a de novo determination of those portions of the report, proposed
findings, or recommendation to which objection is made and may accept, reject, or modify in
whole or in part, the findings or recommendations made by the Magistrate Judge. Objections not
meeting the specificity requirement set out above will not be considered by a District Judge. A
party may not appeal a Magistrate Judge’s report and recommendation directly to the United
States Court of Appeals for the Eleventh Circuit. Appeals may be made only from a final
judgment entered by or at the direction of a District Judge. The Court DIRECTS the Clerk of

5

»

Case 5:16-cv-00044-LGW-BWC Document 59 Filed 06/16/17 Page 6 of 6

Court to serve a copy of this Report and Recommendation upon Plaintiff AND non-party
Waseem Daker.
SO ORDERED and REPORTED and RECOMMENDED, this 16th day of June,
2017.

R. STAN BAKER
UNITED STATES MAGISTRATE JUDGE
SOUTHERN DISTRICT OF GEORGIA

6

■ i
11
^ *3l'

USCA11 Case: 17-15228

Date Filed: 12/15/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-15228-AA

KASIM GANDY,
Plaintiff,
WASEEM DAKER,
Interested Party - Appellant,
versus
HOMER BRYSON, et al,
Defendants,
WARDEN, WARE STATE PRISON,
NATHAN BROOKS,
Tier II Program Unit Manager Ware State Prison,
in his official capacity,
WILLIAM STEEDLY,
Lt of Administrative Segregation Ware State Prison,
in his official capacity,
KIMBERLY LOWE,
Correctional Counselor Ware State Prison,
in her official capacity,
COX,
Tier II Program Unit Manager Ware State Prison,
in his/her official capacity,

Defendants - Appellees.

Pa

-k

USCA11 Case: 17-15228

Date Filed: 12/15/2020

Page: 2 of 2

Appeal from the United States District Court
for the Southern District of Georgia

ON PETITIONtSl FOR REHEARING AND PETITIONfSl FOR REHEARING EN BANC
BEFORE: JORDAN, LAGOA, and HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42
2

